U.S. Department of                      Inspector General      Office of Inspector General
Transportation                                                 Washington, DC 20590
Office of the Secretary
of Transportation



November 14, 2007


The Honorable Patty Murray               The Honorable John W. Olver
Chairman                                 Chairman
Subcommittee on Transportation,          Subcommittee on Transportation,
Housing and Urban Development, and       Housing and Urban Development, and
Related Agencies                         Related Agencies
Committee on Appropriations              Committee on Appropriations
United States Senate                     United States House of Representatives
Washington, DC 20510                     Washington, DC 20515

The Honorable Christopher “Kit” Bond     The Honorable Joe Knollenberg
Ranking Member                           Ranking Member
Subcommittee on Transportation,          Subcommittee on Transportation,
Housing and Urban Development, and       Housing and Urban Development, and
Related Agencies                         Related Agencies
Committee on Appropriations              Committee on Appropriations
United States Senate                     United States House of Representatives
Washington, DC 20510                     Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Knollenberg:

This report presents our fourth quarterly assessment of Amtrak’s fiscal year
(FY) 2007 operational reforms savings (defined throughout as either net operating
savings or a reduction in net operating losses) and unaudited financial performance.
Amtrak realized almost $53 million of the $61 million in FY 2007 reform savings it
originally anticipated. The shortfall in savings resulted from Amtrak eliminating
several initiatives earlier in the year. However, Amtrak’s financial performance was
still stronger than expected.

Summary
  • Amtrak’s FY 2007 cash operating loss of $429 million was $56 million lower than
    its budgeted level of $485 million and $23 million lower than its $452 million
    cash operating loss in FY 2006. Amtrak’s operating loss would have been well


CC-2007-0091
                                                                                                          2

      below $350 million had it not accrued certain costs in FY 2007 that it expects to
      pay in FY 2008 or later.
    • Amtrak’s savings from operational reforms in FY 2007 are lower than originally
      forecast due to Amtrak’s cancellation of the sleeper right-sizing and the call center
      initiatives. However, these savings are higher than anticipated in July due to
      higher than projected savings from food and beverage and station efficiencies.
    • Amtrak’s improved financial performance is attributable in part to the absence of a
      labor settlement, which has constrained labor cost increases. Once a labor
      settlement is reached, this constraint on wages will be removed.
    • Amtrak’s cash balance at the end of FY 2007 was $244 million, compared to
      $215 million in FY 2006. In our July report,1 we projected that Amtrak’s
      FY 2007 end-of-year cash balance would be over $300 million. However, Amtrak
      chose to reduce its cash balance by spending about $60 million to purchase leased
      coach and food service cars and prepay its FY 2008 Railroad Rehabilitation and
      Improvement Financing Program (RRIF) loan payment.
    • Amtrak’s did not spend $31 million of its planned FY 2007 capital program which
      contributed to this high cash balance. While Amtrak spent all of the $495 million
      Federal capital appropriation, it only spent $11 million of the $42 million of
      internal funds it planned to spend on capital projects.

Amtrak’s Fiscal Year 2007 Financial Performance Exceeds Projections
This section provides our review of Amtrak’s FY 2007 financial performance.
Corporate Level Results. Amtrak’s cash operating loss was $429 million—
$56 million lower than projected in its $485 million FY 2007 operating budget and
$23 million lower than in FY 2006. In our July report, we projected that the operating
loss would be less than $390 million. However, Amtrak underestimated its revenue,
overestimated its expenses, and chose to accrue costs in FY 2007 that it anticipates
paying in FY 2008. Amtrak’s decision to accrue this cost at the end of FY 2007,
rather than in FY 2008, significantly increased Amtrak’s reported FY 2007 operating
loss.

Amtrak’s operating loss was $121 million favorable to our FY 2007 $550 million
baseline budget (see figure 1). The baseline budget was our estimate, included in our
January 2007 report,2 of the total amount of Federal subsidy and savings Amtrak
required to cover its operating losses in FY 2007. By comparison, Amtrak estimated

1
    CC-2007-0059, “Third Quarterly Report on Amtrak’s FY 2007 Operational Reforms Savings and Financial
    Performance,” July 31, 2007. Our previous quarterly reports on Amtrak’s savings from operational reforms
    are available at www.oig.dot.gov.
2
    CC-2007-002, “Quarterly Report on Cost Savings Accrued by Amtrak Operational Reform,”
    January 18, 2007.


CC-2007-0091
                                                                                                                                                                   3

it needed $565 million in Federal subsidy and savings to cover its projected FY 2007
operating shortfall.

                                                         Figure 1. Amtrak Operating Loss*
                                                                  Fiscal Year 2007




                          Oct            Nov            Dec       Jan        Feb       Mar        Apr         May       Jun         Jul      Aug       Sep
                     0           (23)
                                               (50)
                          (45)                            (80)

                                        (85)                        (147)
                                                                              (178)
                                                       (140)                             (207)
                  (200)
                                                                                                     (240)
                                                                 (210)
     $ Millions




                                                                                                                (269)      (268)
                                                                                                                                     (291)
                                                                                                                                              (312)
                                                                            (272)

                                                                                      (325)

                  (400)                                                                          (367)
                                                                                                             (410)
                                                      $485 million Federal Subsidy                                      (436)                         (429)
                                                                                                                                                              $121 million
                                                                                                                                   (476)
                                                                                                                                             (515)
                                                                                                                                                                savings
                                                                                                                                                       (550)
                  (600)
                                                                             Actual              Baseline Budget

* Amtrak provided financial data on operating losses
Amtrak’s financial performance reflects $2.2 billion in operating revenues; this is
$71.4 million higher than projected and shows a $142 million improvement over
FY 2006. The improvement in operating revenues reflects higher than expected
passenger revenues, which were $46 million above projected and $164 million above
actual revenues last year.

Amtrak’s operating expenses of $2.6 billion were $15.7 million above FY 2007
budget projections and $118.8 million more than actual expenses in FY 2006.
Materials costs were almost $19 million higher than expected. As noted previously in
this report, FY 2007 expenses partly reflect the estimated expenses accrued in
anticipation of a labor settlement. Other labor savings reflect unfilled positions and
safety improvements resulting in lower Federal Employee Liability Act (FELA) costs.

Business Line Results. As shown in table 1 below, the improvement relative to
budget is primarily accounted for by the Northeast Corridor (NEC). Amtrak’s NEC
Corridor services earned $272.1 million in FY 2007—$47.7 more than expected and
$45.4 million more than last year. The NEC operating revenues reached $885.2
million in FY 2007—$66.5 million above budget projections, mostly as a result of
revenues from Acela service at $56.7 million above budget projections. Amtrak
attributed increases in Acela revenues and ridership to reduced trip times, improved
on-time performance, deteriorating airline service, increased highway congestion, and

CC-2007-0091
                                                                                                                     4

higher gasoline costs. Revenues from Amtrak’s Regional service were $9.8 million
higher than expected. Revenue management (i.e., increasing the number of lower
price seats and better reflecting customer price sensitivities) attributed to the increase
in Regional service revenues. The NEC expenses were $18.8 million above budget,
largely reflecting higher materials costs.

 Table 1. Amtrak Net Profit/(Loss), Excluding Federal Operating Subsidies*
                              FY 2007 ($ in Millions)
                                                                                                  Actual vs.
 Business Line                                               Actual             Budget
                                                                                                   Budget
 National Train System Operations                          ($262.5)           ($293.9)                $31.4
  Northeast Corridor                                         $272.1             $224.4                $47.7
  State-Supported and Other Corridors                      ($113.6)            ($43.2)              ($70.4)
  Long-Distance Service                                    ($421.0)           ($475.1)                $54.1
 Infrastructure Management                                   ($39.0)            ($46.5)                  $7.5
 Ancillary Business                                            $93.2              $74.7                $18.5
 Unallocated System                                        ($220.9)           ($219.3)                 ($1.6)
  Total                                                    ($429.3)           ($485.0)                 $55.7
* Amtrak reports these financials on an earnings before interest, taxes, depreciation, and OPEBs (other post-employment
  benefits) basis. Totals may not sum due to rounding.

State-supported and other corridors lost $113.6 million in FY 2007—$70.4 million
more than expected and $23.3 million more than last year. Revenues were
$25.6 million below budget projections although $38.2 million higher than last year.
Amtrak attributes the shortfall in budgeted revenues to the impact from fare increases
and overly aggressive assumptions about revenue growth from additional services in
Illinois, California, and Pennsylvania.

Long-distance services lost $421.0 million, $54.1 million less than expected and
$20.3 million less than last year. The improvement relative to budget resulted from
$8.6 million in higher than projected passenger revenues and $45.5 million in lower
than expected expenses. The modest revenue increases resulted from higher than
projected ridership. Lower than expected expenses primarily reflect overestimates of
benefit and materials costs.

Amtrak Made Progress on Some Reform Initiatives, but Its Overall
Savings Fell Short of Plans
Amtrak achieved annual savings of nearly $53 million from operational reforms in
FY 2007, somewhat higher than the $46 million Amtrak projected and we reported in
July. This increase in savings reflects revisions in Amtrak’s employee benefits and
FELA costs, not additional effort on existing or new initiatives. About 80 percent of
Amtrak’s savings came from implementing a single initiative: Reduce Costs and


CC-2007-0091
                                                                                                                      5

    Improve Service Quality. This initiative primarily consists of revenue enhancements
    from Acela service quality improvements and cost savings from redesigned food
    services and equipment (see table 2). Enclosure 1 further details Amtrak’s savings
    from operational reforms.

    Amtrak’s savings are lower than the $61 million it originally forecasted for FY 2007.
    The reduced savings reflect Amtrak’s cancellation of the sleeper right-sizing and call
    center initiatives. Amtrak stated it cancelled its sleeper right-sizing initiative based on
    an analysis indicating that the initiative would not generate the savings originally
    projected. However, Amtrak has been unable to produce the analysis that supported
    the decision to cancel this initiative. The call center initiative was cancelled after an
    agreement was reached with labor that reduced costs. These initiatives were projected
    to add $21.9 million in annual savings for FY 2007. Higher than projected savings in
    improved Acela service and station efficiencies helped offset some of the lost savings
    from cancelled initiatives.

    Since our July report, Amtrak has completed some of the projects within the eight
    reform initiatives. These include modifying to the Superliner Diner/Lounge car and
    installing on-board credit card terminals for food and beverage sales on all trains.

         Table 2. Summary of FY 2007 Strategic Reform Initiatives ($ in millions)

                                                 Estimated   Actual FY07                Variance
 Strategic Reform Initiative                    FY07 Benefit   Benefit                     +/-             Progress
 Reduce Costs and Improve
 Service Quality*                                    49.5               42.2             (7.3)         On schedule
 Increase Sales and Distribution
 Efficiencies                                        4.8                 7.1              2.3          On schedule
 Enhance Reliability and Efficiency                                                                    Accelerated
 of Mechanical Services                              0.1                (0.5)            (0.6)         schedule
 Improve Management Systems                                                                            Behind
 and Overhead Efficiencies                           3.7                 3.7              0.0          schedule
 Achieve Ongoing Efficiencies                        3.7                 0.3             (3.4)         On schedule
 Optimize Network Services and                                                                         No reportable
 Use of Assets                                      (0.7)               (0.1)             0.6          progress
 Full Cost Recovery of Services                                                                        No reportable
 and Assets                                          0.0                 0.0              0.0          progress
                                                                                                       No reportable
 Modernize Labor Contracts                           0.0                0.0               0.0          progress
  Total**                                            61.1               52.8             (8.4)
* We show budgeted benefits from sleeper right-sizing in this line item consistent with Amtrak’s original plan. Upon
  cancellation of the initiative, Amtrak reclassified it under the Optimize Network Services and Use of Assets line item for
  budget expense tracking purposes.
**Totals may not sum due to rounding.




    CC-2007-0091
                                                                                                                  6

The following summarizes Amtrak’s progress on its strategic reform initiatives.
Compared to our July assessment on the progress of individual initiatives, one has
been accelerated and one is back on schedule. Of the remaining six initiatives, two
are still on schedule, one is still behind schedule, and three have no reportable
progress. Enclosure 2 further details the actual and budgeted savings for FY 2007 and
projected 5-year savings from these initiatives. Enclosure 3 further details the
progress made on these initiatives.

Reduce Costs and Improve Quality of Passenger Services. In FY 2007, Amtrak
achieved $42.2 million in operating savings from this initiative. Food and beverage
service accounted for $21.8 million in savings, $2.5 million above Amtrak’s
projections. Savings were mainly from the redesigned food service, called Simplified
Dining.3 This sub-initiative has been fully implemented and is now built into the
revenue base.

The Acela service improvement program accounted for $20 million in savings.4
Amtrak estimates that (1) on-time performance contributed $4.1 million to Acela
revenues, (2) a 5-minute trip time improvement on the Acela south end contributed
$9.0 million, and (3) a 15th Acela trainset that was added in October 2006 generated
$6.9 million in revenues in FY 2007. Amtrak added a 16th trainset in July 2007,
which is expected to generate $2.3 million in FY 2008.

Prior to canceling its sleeper restructuring initiative, Amtrak reduced the number of
employees on some of its trains (without reducing sleeper cars), realizing $0.4 million
in savings in FY 2007. Amtrak also completed modifications to the Superliner Diner
Lounge car conversions. Four of the new cars, each renamed the Cross Country Café,
were put into service on the City of New Orleans long-distance train on
October 28, 2007.

Increase Sales and Distribution Efficiencies. In FY 2007, Amtrak achieved
$7.1 million in actual savings from projects within this initiative. Under this
initiative, Amtrak achieved $5.0 million in operating savings from station efficiencies
as a result of installing Quik Trak ticket machines. Quik Trak machines allow
customers to buy tickets at stations rather than on the trains and reduce the need for
ticket agents at stations. Phase 1 was completed in August with the deployment of
199 Quik Trak machines. In Phase 2, Amtrak will deploy an additional 108 Quik
Trak machines. Thirty-three of these machines were installed in September, and the

3
    Simplified Dining is Amtrak’s redesigned food service that primarily relies on fully prepared food products
    that require only on-board heating in a convection or microwave oven, reducing the need for on-board servers
    and food specialists. This initiative has resulted in the elimination of 200 on-board food and beverage
    positions.
4
    The savings associated with Acela improvements are estimated based on a percentage of total Acela revenue
    improvement since it is not possible to directly measure the increased revenues from these specific initiatives.
    The estimates are based on Amtrak’s ridership and revenue models of the NEC.


CC-2007-0091
                                                                                       7

remaining 75 are expected to be installed by November. This will complete the
initiative.

Although Amtrak eliminated its call center outsourcing initiative, it did achieve
$0.2 million in savings from renegotiating lower starting wages for new hires. These
savings are expected to increase to $0.6 million in FY 2008. With the elimination of
the call center outsourcing initiative, Amtrak accelerated its E-ticketing initiative. In
FY 2007, Amtrak achieved $0.9 million in savings from its new international travel
agency sales website. Most of the E-ticketing initiative actions are still in the design
and planning phase with additional savings expected in FY 2008.

Enhance Reliability and Efficiency of Mechanical Services. In FY 2007, Amtrak
did not achieve any saving from this effort. Amtrak accelerated its Continuous
Maintenance (CM) program under its Reliability Centered Maintenance (RCM)
initiative in order to reap benefits sooner than originally planned. Amtrak’s CM
program focuses on improving the availability of equipment and decreasing failure
rates. The program reduces the quarterly maintenance requirements into 12 weekly
programs and 1 weekend program of scheduled maintenance.

Amtrak has implemented CM for its 152 Acela fleet cars. Amtrak expects to
complete its Maintenance Effectiveness Reviews (MERs) for its AEM-7 locomotives
by the end of the fall and begin implementing MERs for its HHP-8 locomotives by
January 2008. This initiative will move to conventional fleet cars at the end of
FY 2008 or early FY 2009. As a result of accelerating the program, consulting
expenses were larger than budgeted and led to a net loss of $0.8 million.

Amtrak also achieved savings of $3.1 million in FY 2007 from consolidating the New
Orleans locomotive maintenance facility into its Chicago facility, which led to the
elimination of 37 staff positions. Amtrak was unsuccessful in finding a contractor for
outsourcing its locomotive maintenance. At this time, Amtrak plans to work with a
consultant to develop in-house alternatives. Amtrak budgeted $2.1 million in savings
this year from this initiative, which did not materialize.

Improve Management Systems and Overhead Efficiencies. In FY 2007, Amtrak
achieved $3.7 million in savings from ongoing efforts to reduce overhead costs; these
include utility costs, bank services and fees, pension plan administrative costs, and
administrative fees related to medical benefits. Utility savings accounted for
$2.8 million of these savings. In July 2007, Amtrak completed the installation of on-
board credit card terminals for use in food and beverage sales on all trains. Amtrak
attributes $0.6 million in savings from credit card terminals from both fraud reduction
and increased sales.

Achieve Ongoing Efficiencies. Amtrak’s initiative to reduce labor costs for the
engineering workforce has achieved significantly lower saving than budgeted. For the


CC-2007-0091
                                                                                        8

year, Amtrak achieved only $0.3 million of the projected $3.7 million in savings due
to increased overtime costs caused by workforce attrition. Amtrak has been working
since December 2006 to reduce overtime by hiring new employees.

Optimize Network Services and Use of Assets. There is no reportable progress on
this initiative. Amtrak continues to work toward implementing state competition pilot
programs in Maine, California, and Vermont. The long-distance restructuring effort is
significantly behind schedule, and no savings were expected in FY 2007.

Full Cost Recovery of Services and Assets. There is no reportable progress for this
initiative. This initiative seeks to recoup fully allocated losses from states for NEC
corridor and commuter services. Currently, Amtrak does not recover its overhead
costs or cost of capital for corridor services. In addition, several states pay nothing to
Amtrak for their corridor service. Because Amtrak has not been able to convince
states to increase (or, in some cases, begin) payments for these services, it expects to
cover $150 million in operating losses on behalf of states in FY 2008.

Modernize Labor Contracts. This initiative is aimed at reducing unit costs and
increasing job flexibility by negotiating new labor agreements that will eliminate
certain work rules and outsourcing restrictions and aligns wages based on market
demand. Negotiations on a new agreement between Amtrak and its unions are at an
impasse. The Railway Labor Act prescribes a process for resolving such an impasse.
In October, Amtrak’s unions rejected the National Mediations Board’s (NMB) proffer
of voluntary, binding arbitration to resolve the impasse. As a result, as of October 31,
both parties are in a 30-day cooling off period. At the end of this period, both sides
would be free to unilaterally act in their own self interest. For example, the unions
could strike or Amtrak management could change pay levels, work rules, or working
conditions. These actions would be placed on hold if the NMB recommends the
creation of, and the President appoints, a Presidential Emergency Board (PEB). The
PEB would investigate the dispute and recommend a settlement to the President.

Conclusion
Amtrak has made progress in implementing some of its reforms, most notably in
streamlined food and beverage services and improved Acela service. However,
overall savings from its reforms initiatives are less than projected and fall below last
year’s savings of $61 million. Instead, significant budget savings came from
favorable market conditions rather than structural change in Amtrak’s operating
environment. Apart from its food and beverage services, Amtrak has made no
progress in the major areas of route restructuring, full cost recovery of state-supported
services, and labor efficiencies.




CC-2007-0091
                                                                                 9

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
David Tornquist, Assistant Inspector General for Rail and Maritime Program Audits
and Economic Analysis, at (202) 366-9970.


Sincerely,




Calvin L. Scovel III
Inspector General


Enclosures (3)


cc: Secretary of Transportation
    Chairman of Amtrak’s Board of Directors




CC-2007-0091
                                                                                       Enclosure 1


                          Table 3. Summary of Amtrak Savings
                                  FY 2007 ($ in millions)


                                                                Revised
                                                               Estimated       Actual
Amtrak Net Operating Savings*
                                                                FY 2007       FY 2007      Variance
                                                                Benefit       Benefit         +/-
Strategic Reform Initiatives
1. Reduce Costs and Improve Service Quality                       49.5         42.2         (7.3)
Service Quality                                                   10.5         20.0          9.5
    Improve NEC Acela service                                     10.5         20.0          9.5
Food and Beverage Services                                        19.3         21.8          2.5
Sleeper Right-Sizing                                              19.7          0.4        (19.3)
2. Increase Sales and Distribution Efficiencies                    4.8          7.1          2.3
Station Efficiencies                                               2.7          5.0          2.3
Call Center Operations                                             2.1          1.2         (0.9)
E-Ticketing                                                        0.0          0.9          0.9
3. Enhance Reliability and Efficiency of Mechanical
   Services                                                       0.1          (0.5)        (0.6)
Reliability Centered Maintenance                                 (2.8)         (3.6)        (0.8)
Facilities Efficiencies                                           2.9           3.1          0.2
     Develop outsourcing plan for locomotive service              2.1           0.0         (2.1)
     Facility consolidation                                       0.8           3.1          2.3
4. Improve Management Systems and Overhead
   Efficiencies                                                   3.7           3.7          0.0
Management Information Systems                                   (0.8)          0.0          0.8
Overhead Costs                                                    4.5           3.7         (0.8)
    Reduce fuel and power                                         0.5           2.8          2.3
    Other overhead                                                1.6           0.3         (1.3)
    Install on-board credit card terminals                        2.4           0.6         (1.8)
5. Achieve Ongoing Efficiencies                                   3.7           0.3         (3.4)
   Engineering                                                    3.7           0.3         (3.4)
6. Optimize Network Services and Use of Assets                   (0.7)         (0.1)         0.6
Routes and Services                                              (0.4)         (0.1)         0.3
    NEC                                                          (0.3)         (0.1)         0.2
    Long distance                                                (0.1)          0.0          0.1
Fleet                                                            (0.1)          0.0          0.1
Infrastructure                                                   (0.2)          0.0          0.2
  Total**                                                        61.1          52.8         (8.4)
Source: Amtrak Finance and Planning Departments
* We included $6.9 million in savings from the 15th Acela train set in Amtrak’s Service Quality sub-
  initiative and excluded a $2 million one-time payment for Co-Branded Credit Card Program.
** Totals may not sum due to rounding.




  CC-2007-0091
                                                                                      Enclosure 2
                                                                                       Page 1 of 3

                Table 4. Amtrak’s Proposed Operational Reforms ($ in millions)

                                                                 FY 2007 Targeted       Estimated 5-Year
                                                                     Savings*               Savings
 Strategic Reform Initiative
                                         Objective                                               Revised
 and Program
                                                                 Original    Actual    Original    April
                                                                 FY 2007    FY 2007    FY 2007     2007
 1. Reduce Costs and Improve Service Quality
                                Focus management
                                attention and drive
                                accountability for train
 Service Quality                service performance,              $9.4      $20.0
                                including on-board service
                                quality and on-time
                                performance.
                                Enhance service flexibility by
                                redesigning food services                                $95         $71
                                (for example, fully prepared
 Food and Beverage Services                                       $19.4     $21.8
                                meals, multi-purpose food
                                service cars), improving
                                equipment, and outsourcing.
                                Improve net operating
 Long Distance Product
                                performance of sleeper            $19.7      $0.4
 Development
                                service.
 2. Increase Sales and Distribution Efficiencies

                                 Deploy more efficient
 Station Efficiencies            communications and               $2.7       $5.0
                                 sales/distribution equipment
                                 and processes at stations.
                                 Develop enterprise systems
 E-ticketing                     and processes for E-             $1.7       $0.9
                                 ticketing.
                                 Build infrastructure to
                                 facilitate customer
 E-Commerce                                                        $0        $0          $41         $32
                                 relationships and generate
                                 incremental revenue.
                                 Develop pricing mechanisms
 Pricing                         for responding to market          $0        $0
                                 conditions.
                                 Improve cost-effectiveness
                                 of call center operations
 Call Center Operations          through improved                 $2.1       $1.2
                                 tools/processes and reduced
                                 labor costs.
Source: Amtrak Strategic Planning Department




       CC-2007-0091
                                                                                     Enclosure 2
                                                                                      Page 2 of 3

           Table 4. Amtrak’s Proposed Operational Reforms ($ in millions) (cont.)
                                                                  FY 2007 Targeted    Estimated 5-Year
                                                                      Savings              Savings
Strategic Reform Initiative
                                          Objective                                             Revised
and Program
                                                           Original         Actual    Original   April
                                                           FY 2007         FY 2007    FY 2007    2007
3. Enhance Reliability and Efficiency of Mechanical Services
                            Implement RCM to reduce
                            cycle time and increase
Reliability Centered
                            equipment reliability and        $(2.8)         $(3.6)
Maintenance (RCM)
                            availability. Costs represent
                            consultant fees.
                            Implement WMS in
                            Mechanical Department to
Work Management System
                            enable management                  $0            $0
(WMS)
                            accountability and
                            effectiveness.
                            Improve Mechanical
Mechanical Productivity and Department productivity and
                                                               $0            $0         $75         $74
Quality                     quality through improved
                            metrics and monitoring.
                               Optimize facility utilization by
                               developing an outsourcing/
Facilities Efficiencies        insourcing strategy and             $2.9      $3.1
                               consolidating and redesigning
                               facilities.

                               Improve efficiency of materials
Materials Management           management through new              $0        $0
                               processes and tools.


4. Improve Management Systems and Overhead Efficiencies
                               Modernize management
                               information systems to
 Management                    improve accuracy, timeliness,
                                                                  $(0.8)     $0
 Information System            and consistency of data and
                               processes across the
                               company.
                                                                                        $36         $37
                               Reduce overhead costs
                               through better allocation,
                               improved administrative and
 Overhead Costs                                                    $4.5      $3.7
                               support function efficiency,
                               and reduced cash handling
                               and transaction costs.
Source: Amtrak Planning Department




        CC-2007-0091
                                                                                    Enclosure 2
                                                                                     Page 3 of 3


           Table 4. Amtrak’s Proposed Operational Reforms ($ in millions) (cont.)
                                                               FY 2007 Targeted      Estimated 5-Year
                                                                   Savings                Savings
Strategic Reform
                                        Objective                                              Revised
Initiative and Program
                                                               Original    Actual    Original   April
                                                               FY 2007    FY 2007    FY 2007    2007
5. Achieve Ongoing Efficiencies
                             Improve cost-effectiveness of
                             train operations through better
Train Operations                                                 $0         $0
                             labor and crew utilization and
                             resource allocation.
                             Increase productivity of
                             engineering workforce through
                             implementation of engineering                              $8          $10
Engineering Efficiencies                                        $3.7       $0.3
                             asset management and
                             improved work management
                             processes.
                             Reduce FRA reportable
Safety                                                           $0         $0
                             illnesses/ injuries rate.

6. Optimize Network Services and Use of Assets
                         Improve alignment of NEC,
                         corridor, and long-distance
Routes and Services                                             $(0.7)     $(0.1)      $92          $91
                         routes and services with
                         market demand.
                         Improve fleet and infrastructure
                         utilization through new service
Asset Utilization        planning tools/processes and a          $0         $0
                         collaborative infrastructure
                         planning process.
7. Ensure Full Cost Recovery of Services and Assets
                             Improve cost recovery from
State Corridors                                                  $0         $0                TBD
                             states for corridor services

                             Improve cost recovery from
NEC Access                                                       $0         $0                TBD
                             users of the NEC

                             Improve cost recovery for long-
Long-Distance Network                                            $0         $0                TBD
                             distance network

8. Modernize Labor Agreements
                             Negotiate new labor
Labor Contracts              agreements that increase            $0         $0                TBD
                             workforce flexibility
Total                                                           $61.0      $52.8       $347         $315
Source: Amtrak Strategic Planning Department



         CC-2007-0091
                                                                          Enclosure 3
                                                                           Page 1 of 6

Progress on Amtrak’s Strategic Reform Initiatives
Reduce Costs and Improve Quality of Passenger Services

This initiative focuses on revenue improvements, cost savings, and customer
service improvements in two areas: (1) service quality and (2) food and beverage
(F&B). As reported in our quarterly report dated July 31, 2007, Amtrak cancelled
the sleeper right-sizing initiative, which had been the third area of improvement
under this initiative.

The service quality component consists of placing Service Managers aboard long-
distance trains, implementing the NEC Acela service improvement plan,
improving on-time performance (OTP), reducing trip times, and developing new
customer service and measurement tools to improve performance. Amtrak
achieved $20 million in savings from increased Acela ticket revenues from this
sub-initiative in FY 2007. Acela OTP improved to 87.8 percent in FY 2007
following an 84.7 percent OTP in FY 2006. However, OTP slipped from a high of
90.2 percent in June to 84 percent in September. Also this year, Amtrak reduced
Acela’s scheduled trip time on the south end by 5 minutes because of improved
performance reliability and added a 16th trainset in July as a result of its Reliability
Centered Maintenance (RCM) program. The additional morning service from
New York and an evening service from Washington, D.C., generated $6.9 million
in revenues in FY 2007. These services are projected to generate an additional
$2.3 million in revenues in FY 2008.

This fall, Amtrak launched a 3-month pilot program under its partnership with
GrandLuxe Rail Journeys (GrandLuxe). The new service uses a separate, private,
seven-car luxury train attached to several regularly scheduled Amtrak trains. The
trains feature dining, lounge, and sleeping cars appointed with elegant vintage
furnishings that will be occupied exclusively by GrandLuxe passengers. Service
began on the California Zephyr and will become available on the Southwest Chief
and the Silver Meteor. Amtrak’s program with GrandLuxe has been revised
downward from 91 departures under the original plan to 22 departures. As a
result, its planned revenues in FY 2008 have been revised downward from
$1.2 million to $0.3 million.

As mentioned earlier, Amtrak modified its the Superliner Diner Lounge cars under
the F&B design initiative so that fewer F&B staff would be required. Each newly
converted diner car has been named the Cross Country Café. In 2008, Amtrak
plans to deploy its Cross Country Café cars on the Sunset Limited, the Texas
Eagle, and the City of New Orleans. Amtrak expects benefits of $1.8 million in
2008 from a combination of labor, fuel, and mechanical costs savings.



CC-2007-0091
                                                                        Enclosure 3
                                                                         Page 2 of 6



Increase Sales and Distribution Efficiencies

This initiative aims to deliver increased revenues and distribution efficiencies from
Amtrak’s sales channels. Programs under this initiative include: (1) deployment
of more efficient communications and sales/distribution equipment and processes
in stations, (2) development and implementation of E-ticketing capabilities,
(3) building of infrastructure to facilitate customer relationships and generate
incremental revenue, and (4) development of pricing mechanisms to enable fast
responses to market conditions. As previously discussed, Amtrak dropped the call
center outsourcing subinitiative that was originally part of this initiative.

Savings from station efficiencies resulted from Amtrak’s installation of Quik Trak
machines, which reduced the number of ticket agents required at stations. Amtrak
has installed 232 Quik Trak machines and plans to install 75 additional machines
by November 2007. Upon deployment of the remaining machines, the initiative
will be complete. Amtrak achieved $5 million in savings and eliminated
61 positions (all but 2 of these positions were eliminated by attrition). About
$3 million of these savings were attributable to overstated benefit rates and
Federal Employees Liability Act costs.

The remaining programs under this initiative are, for the most part, in the design
and planning stages. Amtrak’s E-ticketing sub-initiative has been challenged in
bringing aboard the sizable staff required to undertake an endeavor of this
magnitude. Nonetheless, Amtrak expects to have a full team in place by
November 2007. In 2007, Amtrak introduced the software development of an
electronic database that will provide access to ticket status at various sales stages.
Initial utilization of the new database will begin in July 2008 with a full end-to-
end e-ticketing capability in place by the close of calendar year 2008. Transition
to the full e-ticketing business model will extend through 2009.

Amtrak’s E-Commerce subinitiative is intended to: (1) integrate Amtrak’s Guest
Rewards program, (2) develop and implement improved Internet reservation
capabilities, and (3) develop a centralized customer database. A range of
enhancements have been added to Amtrak’s international travel agency website
that allows foreign travel agents to book reservations and cancel trips. Amtrak
achieved $0.9 million in international sales from this website and expects to
achieve an additional $1.25 million in international sales revenue in FY 2008.

Amtrak plans to leverage this experience in FY 2008 and develop a website for
U.S. domestic travel agencies. It also plans to set up an interface with travel


CC-2007-0091
                                                                        Enclosure 3
                                                                         Page 3 of 6

agencies and ARC (non-electronic payments used by all agencies) and consolidate
the payment process. Amtrak has developed a pilot program for use in the first
quarter of FY 2008 for a limited range of domestic agents.

Amtrak’s pricing sub-initiative seeks to improve its capability to set prices in
response to changing market conditions. A variety of fare pricing actions are
scheduled for FY 2008.

Amtrak’s initiative to reduce initial call center costs is being addressed by a labor
agreement that establishes lower starting wages for new hires. This cost saving
effort is an alternative to the outsourcing call center activity. The FY 2007
savings were $0.2 million.

Enhance Reliability and Efficiency of Mechanical Services

This initiative focuses on improving the reliability and efficiency of mechanical
services and materials management. The key components include implementing
RCM, continued implementation of the Work Management System (WMS),
increasing Mechanical Productivity and Quality, and Facilities Efficiencies.

RCM is Amtrak’s program to reduce the time that trains and locomotives spend
out of service by replacing long maintenance cycles with shorter cycles that fit
into existing operating plans. RCM evaluates the maintenance process and
physical condition of each part during the maintenance cycle. This allows Amtrak
to optimize the work being done by replacing only those parts that are approaching
the end of their estimated life cycle. This reduces the time it takes to complete a
maintenance cycle and allows the equipment to be more available.

RCM is being applied to Acela equipment and is being planned for HHP-8 and
AEM-7 locomotives. To date, Amtrak has made significant progress in
implementing the continuous maintenance program. Maintenance Effectiveness
Reviews (MERs) for AEM-7 Level I & II locomotives were completed in
October 5, 2007 and will follow HHP-8 implementation. Amtrak expects to
complete its MERs for the AEM-7 locomotives by the end of the fall 2007.
Amtrak plans to apply this program to its HHP-8 locomotives by January 2008.
Amtrak expects that RCM will enable a 17th Acela trainset to enter into service in
early FY 2008.

The WMS project is Amtrak’s comprehensive planning and assessment tool for
maintaining rolling stock. The software is a commercial-off-the-shelf product that
is designed to manage mobile assets in a transportation environment. This year’s
changes to the system include complete redesign of the payroll interface to support


CC-2007-0091
                                                                      Enclosure 3
                                                                       Page 4 of 6

the new payroll and human resources modules, deployment of electronic materials
requisitioning, and implementation of the Workbench (a tool that displays the
work assigned to the employee, allowing the person to access information related
to the equipment and the work order). Amtrak also developed and published a
monthly Mechanical Balanced Scorecard with standard metrics and measurements
using WMS as the data source, where applicable.

Amtrak achieved $3.1 million in savings this year from consolidating the New
Orleans locomotive maintenance facility into its Chicago facility. Amtrak
upgraded the Chicago facility to accommodate new maintenance practices and
centralize the maintenance of all P-42 locomotives. Savings from workforce
attrition, which resulted from consolidation of maintenance activities, continue to
accrue.

Improve Management Systems and Overhead Efficiencies

This initiative addresses the modernization of (1) management information
systems to improve accuracy, timeliness, and consistency of data and (2) financial
processes across the company. It also seeks to reduce overhead costs, improve
administrative efficiency, and reduce cash handling and transaction costs. For
FY 2007, actual overhead costs savings were $3.7 million compared to the budget
of $4.5 million.

Key projects under information systems include the Route Profitability System
(RPS) Improvements, Amtrak Performance Tracking (APT) system, and
Integrated Financial Systems (IFS). The APT is a financial infrastructure project
designed to ensure Amtrak’s ability to meet Federal reporting requirements and
improve management information by train and route. The APT will be tested in
the first quarter of calendar year 2008 and is expected to be implemented on April
1, 2008. The IFS project is moving forward as part of the Strategic Asset
Management (SAM) project. The redesigned project encompasses a larger scope
of functionality. The SAM project includes the migration of the Mechanical Work
Management system and the further deployment of work management software for
Amtrak’s Engineering department. Amtrak is near completion with SAM
development and expects to finalize an implementation plan by mid-November
2007.

Initiatives to reduce overhead include: (1) reducing credit card processing costs;
(2) reducing utility costs, bank services and fees, pension plan administrative
costs, and administrative fees related to medical benefits; and (3) installing on-
board credit card terminals. Amtrak completed the installation of on-board credit
card terminals for food and beverage sales on all trains. The project was


CC-2007-0091
                                                                      Enclosure 3
                                                                       Page 5 of 6

completed in July 2007, and Amtrak is currently working on integrating these
terminals with its financial system, which is in the last development phase.
Amtrak expects to complete this by the end of the calendar year. Amtrak achieved
savings of $0.6 million from its on-board credit card terminals, which is less than
the $2.4 million projected. During FY 2008, Amtrak plans to continue to monitor
and upgrade these capabilities. In addition, Amtrak plans to accelerate a program
to install point of sale terminals on each train for the conductors. Amtrak also
achieved contract utility savings of $2.8 million compared to a budget of
$0.5 million.

Achieve Ongoing Efficiencies

This initiative focuses on achieving ongoing efficiencies within the Operations
Branch. Targeted areas include Train Operations and Engineering Efficiencies.
Planned benefits include reducing train fuel consumption, increasing productivity
of the engineering workforce, and reducing the Federal Railroad Administration
(FRA) reportable illnesses/injuries rate.

Train Operations projects in this area include: development of a train fuel
conservation program, creation of a portable locomotive simulator, and subsequent
training of locomotive engineers to improve train handling techniques. The
project had been on hold pending a locomotive simulator and new project
manager. In September, the vendor delivered the portable locomotive simulators
to Amtrak. Amtrak expects to complete software development by late November.
Once the software is available, Amtrak can begin to train the engineers in
locomotive operations utilizing fuel conservation techniques. However, Amtrak
has not yet hired a project manager. Savings are not expected to accrue before
January 2008.

Amtrak achieved savings of $0.3 million from reductions in core wages and
associated overtime in Amtrak’s Engineering Division compared to a projected
$3.7 million. Increased overtime costs following staff attrition have adversely
impacted Amtrak’s ability to reduce Engineering costs.

Optimize Network Services and Use of Assets

The objectives of this initiative are to: (1) improve the alignment of NEC corridor
and long-distance routes and services with market demand and (2) improve fleet
and infrastructure utilization through new service planning tools and processes and
a collaborative infrastructure planning process. There are no new developments to
report.



CC-2007-0091
                                                                          Enclosure 3
                                                                           Page 6 of 6

Ensuring Full Cost Recovery of Services and Assets

This initiative is expected to improve cost recovery from states for corridor
services and from commuters on the NEC by increasing the financial contribution
from these users. It also calls for establishing multi-year grant agreements with
the Federal Railroad Administration on the long-distance network. There are no
new developments to report for this initiative

Modernizing Labor Agreements

This initiative is intended to reduce unit costs and increase job flexibility by
negotiating new labor agreements that will eliminate certain work rule and
outsourcing restrictions. It also aims to align wages based on market demand.
Negotiations between Amtrak and labor union officials have ended without a
resolution. The Railway Labor Act prescribes a process for resolving such an
impasse. Both parties are currently in a 30-day “cooling off” period. At the end
of this period, both sides would be free to unilaterally act in their own self interest.
For example, the unions could strike or Amtrak management could change pay
levels, work rules, or working conditions. These actions would be placed on hold
if the NMB recommends the creation of, and the President appoints, a Presidential
Emergency Board (PEB). The PEB would investigate the dispute and recommend
a settlement to the President.




CC-2007-0091
                                       October 2007 Amtrak Quarterly Report on Operational Savings
                                                    Section 508 Compliant Presentation




Data Table for Figure 1. Amtrak Operating Loss, Fiscal Year 2007
 Months                Oct.          Nov.          Dec.        Jan.         Feb.        March       April         May     June    July    Aug.    Sep.
 Actual                 (23)             (50)        (80)       (147)        (178)       (207)       (240)        (269)   (268)   (291)   (312)   (429)
 Baseline
 Budget                   (45)            (85)      (140)       (210)         (272)       (325)       (367)       (410)   (436)   (476)   (515)   (550)

For FY 2007, Amtrak’s operating loss was $121 million favorable to the FY 2007 baseline budget of $550 million.
Table 4. Amtrak’s Proposed Operational Reforms

Strategic Reform Initiative and Program

Program 1
Reduce Costs and Improve Service Quality
   • Service Quality: Focus management attention and drive accountability for train service performance, including on-
     board service quality and on-time performance.

         • FY2007 Original Targeted Savings, $9.4 million
         • Actual FY 2007 Savings, $20.0 million

   • Food and Beverage Services: Enhance service flexibility by redesigning food services (for example, fully prepared
     meals, multi-purpose food service cars), improving equipment, and outsourcing.

         • FY2007 Original Targeted Savings, $19.4 million
         • Actual FY2007 Savings, $21.8 million

   • Long Distance Product Development: Improve net operating performance of sleeper service.

         • FY2007 Original Targeted Savings, $19.7 million
         • Actual FY2007 Savings, $0.4 million

Original Estimated 5-year savings: $95 million
Revised April 2007 savings: $71 million
Program 2
Increase Sales and Distribution Efficiencies
   • Station Efficiencies: Deploy more efficient communications and sales/distribution equipment and processes at stations.

          • FY2007 Original Targeted Savings, $2.7 million
          • Actual FY2007 Savings, $5.0 million

   • E-ticketing: Develop enterprise systems and processes for e-ticketing.

          • FY2007 Original Targeted Savings, $1.7 million
          • Actual FY2007 Savings, $0.9 million

   • E-Commerce: Build infrastructure to facilitate customer relationships and generate incremental revenue.

          • FY2007 Original Targeted Savings, $0 million
          • Actual FY2007 Savings, $0 million

   • Pricing: Develop pricing mechanisms for responding to market conditions.

          • FY2007 Original Targeted Savings, $0 million
          • Actual FY2007 Savings, $0 million

   • Call Center Operations: Improve cost-effectiveness of call center operations through improved tools/processes and
     reduced labor costs.

          • FY2007 Original Targeted Savings, $2.1 million
          • Actual FY2007 Savings, $1.2 million
Original Estimated 5-year savings: $41 million
Revised April 2007 savings: $32 million
Program 3
Enhance Reliability and Efficiency of Mechanical Services
   • Reliability Centered Maintenance (RCM): Implement RCM to reduce cycle time and increase equipment reliability
     and availability. Costs represent consultant fees.

         • FY2007 Original Targeted Savings, $(2.8) million
         • Actual FY2007 Savings, $(3.6) million

   • Work Management System (WMS): Implement WMS in Mechanical Department to enable management accountability
     and effectiveness.

         • FY2007 Original Targeted Savings, $0 million
         • Actual FY2007 Savings, $0 million

   • Mechanical Productivity and Quality: Improve Mechanical Department productivity and quality through improved
     metrics and monitoring.

         • FY2007 Original Targeted Savings, $0 million
         • Actual FY2007 Savings, $0 million

   • Facilities Efficiencies: Optimize facility utilization by developing an outsourcing/insourcing strategy and
     consolidating and redesigning facilities.

         • FY2007 Original Targeted Savings, $2.9 million
         • Actual FY2007 Savings, $3.1 million
   • Materials Management: Improve efficiency of materials management through new processes and tools.

         • FY2007 Original Targeted Savings, $0 million
         • Actual FY2007 Savings, $0 million

Original Estimated 5-year savings: $75 million
Revised April 2007 savings: $74 million


Program 4
Improve Management Systems and Overhead Efficiencies

   • Management Information System: Modernize management information systems to improve accuracy, timeliness, and
     consistency of data and processes across the company.

         • FY2007 Original Targeted Savings, $(0.8) million
         • Actual FY2007 Savings, $0 million

   • Overhead Costs: Reduce overhead costs through better allocation, improved administrative and support function
     efficiency, and reduced cash handling and transaction costs.

         • FY2007 Original Targeted Savings, $4.5 million
         • Actual FY2007 Savings, $3.7 million

Original Estimated 5-year savings: $36 million
Revised April 2007 savings: $37 million
Program 5
Achieve Ongoing Efficiencies
   • Train Operations: Improve cost-effectiveness of train operations through better labor and crew utilization and
     resource allocation.

         • FY2007 Original Targeted Savings, $0 million
         • Actual FY2007 Savings, $0 million

   • Engineering Efficiencies: Increase productivity of engineering workforce through implementation of engineering
     asset management and improved work management processes.

         • FY2007 Original Targeted Savings, $3.7 million
         • Actual FY2007 Savings, $0.3 million

   • Safety: Reduce FRA reportable illnesses/injuries rate.

         • FY2007 Original Targeted Savings, $0 million
         • Actual FY2007 Savings, $0 million

Original Estimated 5-Year Savings: $8 million
Revised April 2007: $10 million
Program 6
Optimize Network Services and Use of Assets
   • Routes and Services: Improve alignment of NEC, corridor, and long-distance routes and services with market
      demand.

          • FY2007 Original Targeted Savings, $(0.7) million
          • Actual FY2007 Savings, $0.1 million

   • Asset Utilization: Improve fleet and infrastructure utilization through new service planning tools/processes and a
     collaborative infrastructure planning process.

          • FY2007 Original Targeted Savings, $0 million
          • Actual FY2007 Savings, $0 million

Original Estimated 5-Year Savings: $92 million
Revised April 2007: $91 million

Program 7
Ensure Full Cost Recovery of Services and Assets
   • State Corridors: Improve cost recovery from states for corridor services.

          • FY2007 Original Targeted Savings, $0 million
          • Actual FY2007 Savings, $0 million

   • NEC Access: Improve cost recovery from users of the NEC.

          • FY2007 Original Targeted Savings, $0 million
          • Actual FY2007 Savings, $0 million
   • Long Distance Network: Improve cost recovery for long-distance network.

         • FY2007 Original Targeted Savings, $0 million
         • Actual FY2007 Savings, $0 million

Estimated 5-Year savings to be determined.


Program 8
Modernize Labor Agreements
   • Labor Contracts: Negotiate new labor agreements that increase workforce flexibility.

         • FY2007 Original Targeted Savings, $0 million
         • Actual FY2007 Savings, $0 million

Estimated 5-Year savings to be determined.



Total (All Programs)

          • FY2007 Original Targeted Savings, $61 million
          • Actual FY2007 Savings, $52.8 million


Original Estimated 5-Year Savings: $347 million
Revised April 2007: $315 million
